<html>
<title> - H.R. 4782, EXTENDING UNCONDITIONAL NORMAL TRADE RELATIONS TO GEORGIA</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



106th Congress                                                    WMCP:
 2d Session                 COMMITTEE PRINT                       106-15

_______________________________________________________________________

                                     


                         SUBCOMMITTEE ON TRADE

                                 OF THE

                      COMMITTEE ON WAYS AND MEANS

                     U.S. HOUSE OF REPRESENTATIVES

                               __________

                            WRITTEN COMMENTS

                                   ON
 
                          H.R. 4782, EXTENDING
                       UNCONDITIONAL NORMAL TRADE
                          RELATIONS TO GEORGIA





                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     
                             JULY 11, 2000

  Printed for the use of the Committee on Ways and Means by its staff


                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
68-271                     WASHINGTON : 2000



                      COMMITTEE ON WAYS AND MEANS

                      BILL ARCHER, Texas, Chairman

PHILIP M. CRANE, Illinois            CHARLES B. RANGEL, New York
BILL THOMAS, California              FORTNEY PETE STARK, California
E. CLAY SHAW, Jr., Florida           ROBERT T. MATSUI, California
NANCY L. JOHNSON, Connecticut        WILLIAM J. COYNE, Pennsylvania
AMO HOUGHTON, New York               SANDER M. LEVIN, Michigan
WALLY HERGER, California             BENJAMIN L. CARDIN, Maryland
JIM McCRERY, Louisiana               JIM McDERMOTT, Washington
DAVE CAMP, Michigan                  GERALD D. KLECZKA, Wisconsin
JIM RAMSTAD, Minnesota               JOHN LEWIS, Georgia
JIM NUSSLE, Iowa                     RICHARD E. NEAL, Massachusetts
SAM JOHNSON, Texas                   MICHAEL R. McNULTY, New York
JENNIFER DUNN, Washington            WILLIAM J. JEFFERSON, Louisiana
MAC COLLINS, Georgia                 JOHN S. TANNER, Tennessee
ROB PORTMAN, Ohio                    XAVIER BECERRA, California
PHILIP S. ENGLISH, Pennsylvania      KAREN L. THURMAN, Florida
WES WATKINS, Oklahoma                LLOYD DOGGETT, Texas
J.D. HAYWORTH, Arizona
JERRY WELLER, Illinois
KENNY HULSHOF, Missouri
SCOTT McINNIS, Colorado
RON LEWIS, Kentucky
MARK FOLEY, Florida

                     A.L. Singleton, Chief of Staff

                  Janice Mays, Minority Chief Counsel

                                 ______

                         Subcommittee on Trade

                  PHILIP M. CRANE, Illinois, Chairman

BILL THOMAS, California              SANDER M. LEVIN, Michigan
E. CLAY SHAW, Jr., Florida           CHARLES B. RANGEL, New York
AMO HOUGHTON, New York               RICHARD E. NEAL, Massachusetts
DAVE CAMP, Michigan                  MICHAEL R. McNULTY, New York
JIM RAMSTAD, Minnesota               WILLIAM J. JEFFERSON, Louisiana
JENNIFER DUNN, Washington            XAVIER BECERRA, California
WALLY HERGER, California
JIM NUSSLE, Iowa


Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Ways and Means are also published 
in electronic form. The printed record of written comments remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing/written comments 
record, the process of converting between various electronic formats 
may introduce unintentional errors or omissions. Such occurrences are 
inherent in the current publication process and should diminish as the 
process is further refined.


                            C O N T E N T S

                               __________

                                                                   Page

Advisory of June 30, 2000, announcing request for written 
  comments on H.R. 4782, Extending Unconditional Normal Trade 
  Relations to Georgia...........................................     1

                                 ______

H.R. 4782:
    Atlantic Council of the United States, Roger Kirk, letter....     3
    Distilled Spirits Council of the United States, Mark T. 
      Baker, letter..............................................     4
    JBC International, James B. Clawson, letter..................     4
    Marlowe Wines & Spirits, LLC, Larchmont, NY, Richard 
      Garfinkel, letter..........................................     5
    NCSJ, Advocates on behalf of Jews in Russia, Ukraine, the 
      Baltic States and Eurasia, statement.......................     6
      

ADVISORY

FROM THE COMMITTEE ON WAYS AND MEAN

                         Subcommittee on Trade

                                                Contact: (202) 225-6649
FOR IMMEDIATE RELEASE
June 30, 2000
No. TR-22

              Crane Announces Request for Written Comments
              on H.R. 4782, Extending Unconditional Normal
                       Trade Relations to Georgia

    Congressman Philip M. Crane (R-IL), Chairman, Subcommittee on Trade 
of the Committee on Ways and Means, today announced that the 
Subcommittee is requesting written public comments for the record from 
all parties interested in H.R. 4782, a bill to provide for the 
extension of nondiscriminatory treatment (normal trade relations 
treatment) to the products of the Republic of Georgia (Georgia).
      

BACKGROUND:

      
    At present, the trade status of Georgia is subject to the Jackson-
Vanik amendment to Title IV of the Trade Act of 1974 (P.L. 93-618), the 
provision of law governing the extension of NTR to nonmarket economy 
countries ineligible for such status as of the enactment of the Trade 
Act. A country subject to this provision may gain conditional NTR, 
including NTR tariff treatment, only by complying with the freedom-of-
emigration criteria under the Trade Act and by concluding a bilateral 
commercial agreement with the United States providing for reciprocal 
nondiscriminatory treatment. The extension of NTR is also subject to 
congressional approval. The Trade Act authorizes the President to waive 
the requirements for full compliance of the emigration criteria with 
respect to a particular country if he determines that such a waiver 
will substantially promote the freedom-of-emigration provisions and if 
he has received assurance that the emigration practices of the country 
will lead substantially to the achievement of those objectives.
      
    On June 1, 1990, the United States concluded a bilateral trade 
agreement with the Soviet Union, which was approved by Congress in a 
joint resolution signed into law on December 9, 1991 (P.L. 102-197). In 
Proclamation 6352 of October 9, 1991, the President proclaimed that 
this agreement had entered into force and nondiscriminatory treatment 
would be extended to the products of the Soviet Union. Subsequently, 
the Soviet Union was succeeded by 12 independent states including 
Georgia.
      
    On May 6, 1992, the President determined that a Jackson-Vanik 
waiver for Georgia would substantially promote achievement of the 
freedom-of-emigration criteria in the statute. This determination was 
followed on June 3, 1992, by Executive Order 12908, under which the 
Georgia's Jackson-Vanik waiver entered into force. NTR was extended to 
Georgia effective August 13, 1993, following an exchange of diplomatic 
notes applying the provisions of the United States-Soviet Union 
agreement to Georgia in a new bilateral agreement.
      
    On June 3, 1997, the President determined that Georgia was in full 
compliance with the Jackson-Vanik freedom-of-emigration criteria. This 
determination removed the need for future waivers to continue NTR, 
although Georgia's trade status remains subject to the terms of the 
Jackson-Vanik amendment.
      
    Pursuant to section 122 of the Uruguay Round Agreements Act (P.L. 
103-465), requiring congressional consultation prior to country 
accessions to the World Trade Organization (WTO), the United States 
Trade Representative transmitted detailed materials to the Committee on 
Ways and Means on September 7, 1999, on the pending accession of 
Georgia to the WTO. Because the United States has not extended 
unconditional NTR to Georgia as a result of the application of the 
Jackson-Vanik amendment, the United States had to invoke the non-
application clause of the WTO (Article XIII) at the WTO General Council 
meeting on Georgia's accession on September 30, 1999, meaning that the 
United States would not apply the WTO Agreements to Georgia upon that 
country's accession to the WTO. Georgia formally became a member of the 
WTO on June 14, 2000.
      
    On June 29, 2000, Chairman Crane introduced H.R. 4782, authorizing 
the President to determine that the Jackson-Vanik amendment should no 
longer apply to the Republic of Georgia and after making such a 
determination to proclaim the extension of nondiscriminatory treatment 
to the products of that country. If the bill were to become law, the 
United States would be able to extend unconditional NTR to Georgia, and 
all rights and obligations under the WTO agreed to by the two countries 
would apply. Similar legislation, S. 2141, was introduced in the Senate 
by Senator Sam Brownback (R-KS) on March 2, 2000.
      

DETAILS FOR SUBMISSION OF WRITTEN COMMENTS:

      
    Any person or organization wishing to submit a written statement 
for the printed record should submit six (6) single-spaced copies of 
their statement, along with an IBM compatible 3.5-inch diskette in 
WordPerfect or MS Word format, with their name, address, and comments 
date noted on label, by the close of business, Tuesday, July 11, 2000, 
to A.L. Singleton, Chief of Staff, Committee on Ways and Means, U.S. 
House of Representatives, 1102 Longworth House Office Building, 
Washington, D.C. 20515.
      

FORMATTING REQUIREMENTS:

      
    Each statement presented for printing to the Committee by a 
witness, any written statement or exhibit submitted for the printed 
record or any written comments in response to a request for written 
comments must conform to the guidelines listed below. Any statement or 
exhibit not in compliance with these guidelines will not be printed, 
but will be maintained in the Committee files for review and use by the 
Committee.
      
    1. All statements and any accompanying exhibits for printing must 
be submitted on an IBM compatible 3.5-inch diskette in WordPerfect or 
MS Word format, typed in single space and may not exceed a total of 10 
pages including attachments. Witnesses are advised that the Committee 
will rely on electronic submissions for printing the official hearing 
record.
      
    2. Copies of whole documents submitted as exhibit material will not 
be accepted for printing. Instead, exhibit material should be 
referenced and quoted or paraphrased. All exhibit material not meeting 
these specifications will be maintained in the Committee files for 
review and use by the Committee.
      
    3. A witness appearing at a public hearing, or submitting a 
statement for the record of a public hearing, or submitting written 
comments in response to a published request for comments by the 
Committee, must include on his statement or submission a list of all 
clients, persons, or organizations on whose behalf the witness appears.
      
    4. A supplemental sheet must accompany each statement listing the 
name, company, address, telephone and fax numbers where the witness or 
the designated representative may be reached. This supplemental sheet 
will not be included in the printed record.
      
    The above restrictions and limitations apply only to material being 
submitted for printing. Statements and exhibits or supplementary 
material submitted solely for distribution to the Members, the press, 
and the public during the course of a public hearing may be submitted 
in other forms.
      

    Note: All Committee advisories and news releases are available on 
the World Wide Web at ``http://waysandmeans.house.gov''.
      

      

                                <F-dash>


                                                       July 7, 2000

The Honorable Philip M. Crane
Chairman
Ways and Means Sub-Committee on Trade
1104 Longworth House Office Building
Washington, DC 20515-6354

    Dear Mr. Chairman:
    Thank you for asking me to submit comments concerning extension of 
unconditional Normal Trade Relations (NTR) to the Republic of Georgia. 
While I write in my personal capacity, I have been Chair of the 
Atlantic Council's Balkan Task Force since its inception in 1996 and a 
Vice Chair of its Board. I have also participated actively in the 
Council's work on Russia and the Newly Independent States.
    I strongly support extension of unconditional NTR to the Republic 
of Georgia. By any account, Georgia has long since meet the freedom-of-
emigration criteria set forth in Jackson-Vanik and has long since met 
other criteria established in the Trade Act of 1974. Georgia was first 
determined to have met these criteria in 1992 by Executive Order 12908, 
leading to the extension of provisional NTR in 1993. Georgia formally 
became a member of the World Trade Organization on June 14, 2000. While 
Georgia still has room for improvement, it has made strong progress on 
issues related to the treatment of minorities and the development of 
democratic governmental and market economy institutions.
    Georgia's integration into the world economy ranks among important 
foreign policy interests of the United States in the region. The 
inability of the United States to engage Georgia fully due to the 
limitations established by Jackson-Vanik limits U.S. policy and 
influence throughout the region. Officials within the U.S. Department 
of State strongly support the extension of NTR to Georgia, point to 
Georgia as a ``positive example'' and see Georgia as the best case for 
NTR in the region.
    Extension of nondiscriminatory treatment to Georgia will 
effectively enhance bilateral relations between Georgia and the United 
States as well as U.S. relations with the whole region. Such extension 
will also allow the United States to take full advantage of the rights 
and obligations agreed to under the Uruguay Round Agreements of the WTO 
so far as they relate to Georgia.
    In addition, Georgia's participation in the WTO will, by increasing 
interaction with other nations by Georgian officials and their 
superiors in government and the legislature, help Georgia become a 
fully contributing member of the community of democratic, market 
economy nations, something which is of interest to the United States as 
well as Georgia.
    In short, I urge the Congress to act to extend unconditional NTR to 
the Republic of Georgia as this is in the interest of the United 
States.
            Sincerely,

                                      Roger Kirk           
                                       Former Ambassador to Romania
                                  Chair, Balkan Task Force of the  
                              Atlantic Council of the United States
      

                                <F-dash>


                                                     DISCUS
                                       Washington, DC 20005
                                                      July 10, 2000

The Honorable Philip M. Crane
Chairman
Subcommittee on Trade
Committee on Ways and Means
U.S. House of Representatives
Washington, DC 20515

RE: HR 4782, Extension of Unconditional Normal Trade Relations to the 
Republic of Georgia

    Dear Mr. Chairman:
    On behalf of the Distilled Spirits Council of the United States 
(DISCUS), I am writing to express our strong support for the extension 
of unconditional normal trade relations (NTR) to the Republic of 
Georgia. DISCUS is the national trade association representing U.S. 
producers, marketers, and exporters of distilled spirits products. On 
October 15, 1999, DISCUS submitted comments to the Subcommittee on 
Trade in support of extending NTR to Georgia and several other ex-
Soviet states. Since that time, Georgia has formally acceded to the 
World Trade Organization, making the extension of NTR even more urgent 
if the United States is to benefit from Georgia's participation in the 
rules-based trading system.
    During the negotiation of Georgia's WTO accession agreement, DISCUS 
worked closely with officials from the Office of the U.S. Trade 
Representative (USTR) to secure improved terms of access to the 
Georgian market. USTR negotiators succeeded in striking an agreement 
with Georgia that would involve a substantial reduction of tariffs on 
imported distilled spirits, with a final rate of 1.5 ECU per liter of 
pure alcohol. In addition, the accession terms require that Georgia 
provide the full range of protection for trademarks and geographical 
indications, as required by the WTO Agreement on Trade Related 
Intellectual Property (TRIPs), immediately upon accession.
    The extension of unconditional NTR will create the stable trading 
environment necessary to enable U.S. distillers to take full advantage 
of Georgia's accession to the WTO. In the absence of extending NTR to 
Georgia, U.S. companies will not enjoy the favorable terms that USTR 
steadfastly negotiated as part of Georgia's WTO accession agreement, 
and our exporters will be placed at a competitive disadvantage vis-
&agrave;-vis firms of other WTO members who are prepared to fully apply 
the WTO to Georgia.
    For these reasons, we strongly support the extension of 
unconditional normal trade relations to Georgia.
            Sincerely,

                                              Mark T. Baker
                                               Vice President,     
                                                International Trade
      

                                <F-dash>


Mr. A.L. Singleton
Chief of Staff
Committee on Ways and Means
U.S. House of Representatives
1102 Longworth House Office Building
Washington, DC 20515

Re: Request for Written Comments on H.R. 4782

    Dear Mr. Singleton:
    This statement is filed on behalf of JBC International (JBC). JBC 
appreciates the opportunity to comment on H.R. 4782 to extend normal 
trade relations treatment (NTR) to the Republic of Georgia (Georgia). 
JBC supports H.R. 4782, which will extend unconditional NTR to Georgia 
and will terminate the application of Title IV of the Trade Act of 1974 
to Georgia.

Introduction

    JBC International is an international business-consulting firm that 
provides strategies to expand, increase, and protect the international 
business of corporations. JBC provides strategic advice to companies 
and governments on such international trade issues as intellectual 
property rights, customs automation, classification and valuation 
issues, and tariff regimes. Our clients are Fortune 500 multinational 
corporations with offices and manufacturing facilities in more than a 
hundred countries worldwide. Members of our firm sit on a number of 
international trade-related committees and councils and have a decades 
long involvement with the issues and implications of international 
trade.

Support for Unconditional NTR with Georgia

    JBC supports the granting of unconditional NTR to Georgia for 
multiple reasons. First, the passage of this bill will allow the United 
States to apply the World Trade Organization (WTO) Agreement to 
Georgia, including all the accompanying rights and obligations under 
the treaty. Such obligations include abiding by the internationally 
recognized WTO dispute settlement mechanisms. These mechanisms 
encourage fair trade and enable U.S. companies to compete on a level 
playing field.
    They also foster the rule of law in member countries. In this 
regard, U.S. companies can look forward to greater intellectual 
property protection than has been historically provided in the states 
of the former Soviet Union.
    Extending NTR to Georgia will also enable the Georgian economy to 
benefit from greater bilateral trade flows with the United States. A 
growing economy will increase the demand for all goods. In 1999, the 
number of countries trading with Georgia increased from 54 to 110. Laws 
such as H.R. 4782 will help U.S. firms to maintain their 
competitiveness in Georgia's increasingly crowded import market by 
continuing to extend the trade preferences that U.S. firms have 
received for most of the past decade.
    Failure to ratify H.R. 4782 would be mean a retrenchment for U.S. 
companies doing business in Georgia. Companies would continue without 
the rights and protections extended to the United States-Georgia trade 
by the WTO. Other countries would move quickly to fill the gap. Total 
international trade flows for Georgia last year exceeded $800 million. 
In 1999, Georgia conducted 40% of its foreign trade with members of the 
Commonwealth of Independent States, and 22% with European Union 
countries. Without equal access to this market, U.S. firms will 
steadily lose ground.
    H.R. 4782 provides an effective means of incorporating Georgia into 
the world trading system. H.R. 4782 also fosters the rule of law and 
strengthens the Georgian economy while providing adequate protections 
to U.S. companies under WTO Agreements. It is important that the United 
States continues to encourage the Republic of Georgia as a fellow 
member of the global economy and that U.S. firms compete with their 
European and Asian counterparts on equal terms in the Georgian market. 
For these reasons, JBC International supports the enactment of H.R. 
4782
            Submitted by JBC International.

                                           James B. Clawson
                                                   CEO             
      

                                <F-dash>


                               Marlowe Wines & Spirits, LLC
                                  Larchmont, New York 10538
                                                      July 11, 2000

To: A.L. Singleton, Chief of Staff
Committee on Ways and Means
U.S. House of Representatives
1102 Longworth House Office Bldg.
Washington, D.C. 20515

Re: HR.4782

    Dear Sir:
    We are pleased to introduce ourselves. Our company has been 
importing Georgian wines into the United States for the last three 
years. We represent Georgian Wines & Spirits Company, Limited here.
    Through my travels in Georgia and business contacts established 
there I have come across numerous business opportunities for trade 
developement. Georgia can become a supplier to the United States of 
numerous agricultural products including canned goods. There is also 
opportunity for various consumer products to be imported here from 
Georgia. However, without favorable (normal) trade relations between 
the USA and Georgia, the required investment for production in Georgia 
is very difficult to justify. Normal trade relations will facilitate 
financing for these projects.
    If we can provide any additional information, please contact us.
            Sincerely yours,

                                          Richard Garfinkel
                                             Marlowe Wine & Spirits
      

                                <F-dash>


Statement of NCSJ Advocates on behalf of Jews in Russia, Ukraine, the 
Baltic States & Eurasia

Introduction

    NCSJ appreciates the opportunity to share its written 
comments with the Committee on the extension of Permanent 
Normal Trade Relations (``PNTR'') to the Republic of Georgia. 
NCSJ represents the organized American Jewish community with 
respect to Jewish concerns in the successor states to the 
former Soviet Union. Since the enactment of the Jackson-Vanik 
Amendment in 1974, the U.S. Congress and, in particular, the 
House Committee on Ways and Means, Trade Subcommittee has 
actively sought to protect the rights of minorities in the 
countries subject to the Amendment. We believe it is of 
continuing importance to the Committee to ensure that the 
graduation of Georgia, or any other successor state to the 
former Soviet Union, reflect this strong and long-standing 
commitment to the protection of human rights.
    NCSJ has supported, within the legal framework of the 
Jackson-Vanik Amendment, Presidential determinations to extend 
PNTR (i.e. Most-Favored Nation ``MFN'') to certain former 
Soviet Republics through the exercise of Presidential waivers 
and Presidential determinations of compliance with the 
Amendment. It is not the position of NCSJ that the terms of 
Jackson-Vanik should apply in perpetuity to the former 
republics of the Soviet Union. However, graduation for any 
successor state must be conditioned upon the development of a 
legal structure that guarantees internationally recognized 
human rights for its Jewish citizens, and other such 
minorities, and in so doing, for all nationals of the country. 
In the absence of a legal system incorporating such rights into 
its legal system, provides little certainty that its citizens 
will have the right to emigrate guaranteed in law and 
administrative practice.

Terms of Reference

    The Jackson-Vanik Amendment in Title IV of the Trade Act of 
1974 (P.L. 93-618, 19 U.S.C. 2432) was enacted to ``assure the 
continued dedication of the United States to fundamental human 
rights,'' and in so doing addressed eliminating barriers to 
emigration. For all intent and purpose, the application of 
Jackson-Vanik has encompassed the observance of internationally 
recognized human rights including--but not limited to--the 
right of emigration. Congress has recognized that Jackson-Vanik 
has become an instrument of U.S. policy for assessing certain 
countries' observance of basic human rights and the protection 
of minorities. These principles are reflected in H.R. 4782.
    The recognition of these basic human rights by each of the 
successor states to the former Soviet Union is fundamental to 
the reemergence of Jewish communities and communal life. 
Assessing the observance of these rights in the legal and 
administrative structure is the baseline for determining 
whether NCSJ can support the extension of unconditional PNTR.
    The sole criteria for the extension of PNTR, i.e., 
graduation of a successor state from Jackson-Vanik, is whether 
a successor state has satisfied the human rights considerations 
embodied in the Amendment. The accession of a successor state 
to the WTO is an insufficient basis for the granting of PNTR. 
Rather the granting of PNTR and the conclusion of a bilateral 
trade agreement should be the consequence of a successor state 
adopting and implementing basic human rights, such as the 
absolute right to emigrate.
    The commitment of the U.S. Congress for more than a 
quarter-century to achieving the objectives envisioned by the 
Jackson-Vanik Amendment are neither conditioned nor limited by 
the accession of a successor state to the WTO. In other words, 
graduation of any successor state from the terms of Jackson-
Vanik must be based upon an assessment of emigration policies 
as reflected in law and fact, and, no less importantly, other 
national policies that affect the status of ethnic and 
religious minorities, such as the Jewish community. This has 
been and continues to be the foundation of the Jackson-Vanik 
Amendment. With rare exception, virtually every Member of 
Congress has subscribed to this formulation. In joint 
resolutions, declarations, letters to officials to the FSU and 
successor states and in meetings with officials prior to and 
following the dissolution of the FSU. In particular, with 
respect to the Jewish minority, Congress' record is 
unambiguous. Therefore, graduation must be conditioned upon 
Congressional consideration of the following standards and 
conditions:
    Unrestricted right of emigration, protection of minority 
rights, including (legislation to provide protection against 
incitement to violence against persons or groups based on 
various criteria, including religion, e.g.anti-Semitism), and 
the exercise of freedom of religion;
    The incorporation of human rights standards (including 
freedom of emigration and religion) into the country's 
constitutional and legal structure, their protection by the 
judiciary, and the implementation of administrative practices 
that do not detract from such rights;
    Participation in bilateral and multilateral mechanisms 
related to the observance of religious freedom and basic human 
rights, demonstrating a commitment to these freedoms and 
rights.
    The government of Georgia has been responsive to concerns 
of the Jewish community, has accepted and continued its 
obligations with respect to outstanding issues of communal 
property restitution, and has cultivated close relations with 
the United States and Israel. The leadership of President 
Eduard Shevardnadze presents a useful model for other Soviet 
successor states, but Georgia's future is not yet guaranteed. 
Beyond the challenge of developing the next generation of 
domestic leaders, instability continues to plague Georgia's 
geographic and political life.

Conclusion

    NCSJ believes that any legislation to graduate successor 
states from the Jackson-Vanik Amendment should acknowledge 
assurances from the respective governments regarding freedom of 
emigration and other human rights. In other words, there should 
be an assurance provided to the United States regarding these 
matters.
    NCSJ welcomes the inclusion of language in H.R. 4782 
reflecting the commitment of the United States Congress to 
advancing the basic rights of minorities in Georgia and the 
other Soviet successor states. NCSJ, upon the evaluation of the 
criteria identified above has concluded that Georgia has 
satisfied the criteria for graduation from the Jackson-Vanik 
Amendment.
    On this basis, NCSJ supports the enactment of H.R. 4782 as 
introduced.


</pre></body></html>
